CERTIFICATE OF SERVICE
I hereby certify that I am this day serving the
foregoing document upon the persons and in the
manner of first-class mail as below,
HOWARD G. HOPKIRK
Senior Deputy Attorney General
Office of Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
Wei made this declaration in compliance with 28 U..
S. C. ยง 1746 setting out the date of deposit and
stating that first-class postage has been prepaid.

3910 Silver Brook Dr.
Mechanicsburg, PA 17050
Phone: (717) 732*2040
Email: mingweiebct@hotmail.com
08/12/2020

1

